Ti

C@QCKLE

2311 Douglas Street :
Omaha, Nebraska 68102-1214 Legal B rie fs
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850
No.
RICHARD NATOFSKY,
Petitioner,
v.
THE CITY OF NEW YORK,
Respondent.

CERTIFICATE OF COMPLIANCE

E-Mail Address:

contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court

Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 7257 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 6th day of December, 2019.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary

State of Nebraska
My Commission Expires Nov 24, 2020

ee

 

 

Notary Public

38846
